<html>
<title> - THE CYBERSECURITY RESPONSIBILITIES OF THE DEFENSE INDUSTRIAL BASE</title>
<body><pre>[Senate Hearing 116-260]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 116-260
 
   THE CYBERSECURITY RESPONSIBILITIES OF THE DEFENSE INDUSTRIAL BASE

=======================================================================

                                HEARING

                               before the

                            SUBCOMMITTEE ON
                             CYBERSECURITY

                                 of the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 26, 2019

                               __________

         Printed for the use of the Committee on Armed Services
         
         
         
         
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]        


                  Available via http://www.govinfo.gov
                  
                  
                  
                             ______                      


              U.S. GOVERNMENT PUBLISHING OFFICE 
 41-313 PDF             WASHINGTON : 2020                  


                      COMMITTEE ON ARMED SERVICES

                     JAMES M. INHOFE, Oklahoma, 
                               Chairman
                               
ROGER F. WICKER, Mississippi         JACK REED, Rhode Island
DEB FISCHER, Nebraska                JEANNE SHAHEEN, New Hampshire
TOM COTTON, Arkansas                 KIRSTEN E. GILLIBRAND, New York
MIKE ROUNDS, South Dakota            RICHARD BLUMENTHAL, Connecticut
JONI ERNST, Iowa                     MAZIE K. HIRONO, Hawaii
THOM TILLIS, North Carolina          TIM KAINE, Virginia
DAN SULLIVAN, Alaska                 ANGUS S. KING, Jr., Maine
DAVID PERDUE, Georgia                MARTIN HEINRICH, New Mexico
KEVIN CRAMER, North Dakota           ELIZABETH WARREN, Massachusetts
MARTHA McSALLY, Arizona              GARY C. PETERS, Michigan
RICK SCOTT, Florida                  JOE MANCHIN, West Virginia
MARSHA BLACKBURN, Tennessee          TAMMY DUCKWORTH, Illinois
JOSH HAWLEY, Missouri                DOUG JONES, Alabama

                   John Bonsell, Staff Director
                 Elizabeth L. King, Minority Staff 
                              Director
                              



                     Subcommittee on Cybersecurity

                      MIKE ROUNDS, South Dakota, 
                              Chairman
             
ROGER F. WICKER, Mississippi         JOE MANCHIN, West Virginia
DAVID PERDUE, Georgia                KIRSTEN E. GILLIBRAND, New York
RICK SCOTT, Florida                  RICHARD BLUMENTHAL, Connecticut
MARSHA BLACKBURN, Tennessee          MARTIN HEINRICH, New Mexico
                                     
                                     
                                     

                                  (ii)

  


                             C O N T E N T S


                             March 26, 2019

                                                                   Page

The Cybersecurity Responsibilities of the Defense Industrial Base     1

LaPlante, Honorable William A., Senior Vice President and General     3
  Manager, Mitre National Security Sector.
Luddy, John, Vice President for National Security Policy,             8
  Aerospace Industries Association.
Peters, Christopher, Chief Executive Officer, The Lucrum Group...    14
MacKay, Michael P., Chief Technology Officer, Progeny Systems        18
  Corporation.

                                 (iii)



   THE CYBERSECURITY RESPONSIBILITIES OF THE DEFENSE INDUSTRIAL BASE

                              ----------                              


                        TUESDAY, MARCH 26, 2019

                      United States Senate,
                     Subcommittee on Cybersecurity,
                               Committee on Armed Services,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:31 p.m. in 
Room SR-232A, Russell Senate Office Building, Senator Mike 
Rounds (chairman of the subcommittee) presiding.
    Subcommittee Members present: Senators Rounds, Scott, 
Manchin, and Gillibrand.

            OPENING STATEMENT OF SENATOR MIKE ROUNDS

    Senator Rounds. The Cybersecurity Subcommittee meets this 
afternoon to discuss an issue of great concern to me and the 
Department of Defense (DOD): the cybersecurity of the defense 
industrial base (DIB).
    Since the reporting of the breach of a contractor for the 
Naval Undersea Warfare Center last June, the Department has 
been shocked into action. The truth is, however, that 
adversaries have been breaching our contractors for a much 
longer time, stealing our design information and intellectual 
property not by targeting the Department itself, but through 
its vulnerable contractor base.
    This espionage will never be stopped in its entirety, and 
it is unlikely that it can be negotiated away or deterred. It 
must, however, be made more difficult. The Department cannot 
afford to continue leaking critical design secrets to China and 
Russia effectively subsidizing their own defense developments.
    It is incredibly clear that the status quo is not working. 
So far, the Department's efforts in this space have been 
disjointed and have mostly been a reemphasis of the current 
policies.
    The Navy has taken additional steps to start to audit its 
contractors for compliance with their cybersecurity 
requirements. This month, the Navy released its cybersecurity 
readiness review, which includes several recommendations for 
improved collaboration and communication between the Navy and 
its contractors to mitigate cyber threats. I am encouraged that 
the Secretary of the Navy has taken the first step to improving 
their cybersecurity by completing this detailed review, and I 
look forward to understanding how they plan to implement the 
recommendations.
    The Office of the Secretary of Defense has also 
reemphasized the importance of the current National Institute 
of Standards and Technology, or NIST, cybersecurity standard.
    The Department has also stood up the Protecting Critical 
Technologies Task Force headed by Major General Murphy. The 
task force is taking a wide-reaching approach to the problem, 
contemplating the policy, technological and operational changes 
that could improve contractors' cybersecurity.
    While I expect the Department will come up with measured 
policies to make improvements in this area, I hope that it 
takes seriously the concerns of the defense industrial base. 
The Department cannot simply apply increasingly stringent 
cybersecurity requirements on its contractors. Doing so without 
subsidy or assistance is unlikely to particularly improve the 
cybersecurity of the defense industrial base and will likely 
drive the most innovative small businesses out of its supply 
chain.
    I am also somewhat apprehensive about an approach centered 
on cybersecurity checklists. While there are benefits to the 
NIST-based framework, I am concerned that approaches based on 
compliance to that framework do little to help businesses meet 
these standards, do not account for the particulars of the 
threat, and do not help businesses prioritize investments or 
personnel. Instead, these approaches establish baseline for 
capability which may or may not form the basis for an effective 
cybersecurity architecture.
    I hope the Department can formulate policies that 
prioritize the lowest-hanging fruit and emphasize the best 
return on investment for contractors that often struggle within 
thin margins.
    I also hope that the Department's policies take a 
considered approach to partitioning cybersecurity 
responsibility among itself, its prime contractors, and their 
subcontractors. No one entity can shoulder the entire burden of 
this effort.
    We have invited witnesses from the defense industrial base 
to assess how the Department's policies and regulations have 
affected their cybersecurity, which is a viewpoint that we 
cannot afford to ignore in these conversations.
    Today, we will hear from: the Honorable William A. 
LaPlante, Senior Vice President and General Manager, MITRE 
National Security Sector, heavily involved in the MITRE 
strategy entitled ``Deliver Uncompromised;'' Mr. John Luddy, 
Vice President for National Security Policy, Aerospace 
Industries Association (AIA); Mr. Christopher Peters, Chief 
Executive Officer of The Lucrum Group, heavily involved with 
the National Defense Industrial Association's work on defense 
industrial base cybersecurity; and Mr. Michael P. MacKay, Chief 
Technology Officer, Progeny Systems Corporation, a small 
defense contractor based in Manassas, Virginia. Thank you for 
your willingness to testify today. I look forward to our 
conversation this afternoon.
    Senator Manchin?

              STATEMENT OF SENATOR JOE MANCHIN III

    Senator Manchin. Mr. Chairman, thank you so much.
    I want to thank each and every one of you all for being our 
witnesses today testifying on a critical national security 
problem, namely the hemorrhaging of technology and know-how 
from the U.S. industry and academia to adversaries, chiefly 
China, which enables the rapid progression of their military 
capabilities. I have had the opportunity of both serving on the 
Armed Services Committee and the Intelligence Committee. So I 
know exactly where you all hopefully will be coming from.
    We know that China is using cyber hacking and coercing 
technology transfers from U.S. companies to acquire U.S. 
intellectual property, which undermines our economy and 
ultimately erodes national security because it remains easier 
for cyber hackers to penetrate networks than for defenders to 
stop them. There are no simple solutions to these problems.
    But I am encouraged to see Congress, DOD, and the private 
sector finally addressing the fundamental issues that we all 
face.
    One of these pressing issues is the imperative of improving 
security in the smaller defense industrial base companies. 
These companies are vital components of our supply chains and 
sources of our innovation. But many of these small companies 
currently lack the resources and expertise to defend themselves 
and the DOD data and technology that they hold against national 
state attacks.
    We must find ways to correct this situation. Our witnesses 
today--you all come from and you represent or you have studied 
these industrial base partners who are threatened every day 
with cyber attacks from our principal adversaries. So I look 
forward to your insights and advice on how we correct this.
    Thank you, Mr. Chairman.
    Senator Rounds. Thanks, Senator Manchin.
    Let us just begin with opening statements, if you would 
like, and Dr. LaPlante, I will start with you.

    STATEMENT OF HONORABLE WILLIAM A. LaPLANTE, SENIOR VICE 
              PRESIDENT AND GENERAL MANAGER, MITRE
                    NATIONAL SECURITY SECTOR

    Dr. LaPlante. Yes, thank you, Chairman Rounds. Thank you, 
Ranking Member Manchin. Thank you, Senator Scott and the other 
members of this committee.
    Of course, having this hearing and your opening statements 
both identified the challenge on the threat side, but also 
making sure that every solution we put in will not be actually 
worse than the problem we are trying to solve. So you 
understand that.
    As you said, I am Senior Vice President (VP) at MITRE. We 
are a not-for-profit that operates seven Federally Funded 
Research and Development Centers (FFRDCs), one for the DOD and 
the Intelligence Community (IC), but another one, importantly, 
is the standards of cybersecurity for NIST. So I have a few 
things to say about that.
    Before that, I was the Secretary of the Air Force for 
Acquisition.
    As you all know, just like our warfighters are under attack 
or threatened under attack, we now pretty well know that our 
defense industrial base has been under attack for 10-15 years. 
Most of us who have worked in the industrial base have known 
this. It has been a while. For a while, we could not talk much 
about it, which has been part of the problem.
    And, yes, we still have an education issue, as I think some 
of my colleagues are going to say.
    It is not just the loss of Intellectual Property (IP). We 
have all had this experience. My experience while Assistant 
Secretary I think was at the Dubai air show walking over to the 
China part of the air show and looking at the J-31 and saying 
other than that second engine, that is the F-35, and then going 
over and getting the brochure for what was a dead-on copy of 
the MQ-9, which is our Reaper unmanned aerial vehicle.
    Now, am I saying the insides are the same and they operate 
the same? No, maybe not, but they will get there. So, yes, it 
is real.
    But it is not just the IP. It is also how we train. It is 
our manuals. People in my business--we write lots of stuff. We 
write lots of technical memos. A lot of that stuff has not been 
classified. So you can understand how we train. You can 
understand tactics, techniques and procedures, Concept of 
Operations (CONOPs). So it is all together.
    Now, does that mean that they are going to be just as good 
as us by having it? Not necessarily so, but it sure helps. It 
sure helps them.
    So this is about our technological superiority.
    Now, inclusion is needed. At the same time we are saying 
all this, of course, we do not want to scare away our friends 
in industry. We want the small businesses. We want the 
innovative firms. We get that.
    So this is complex, but we can solve it. We have to 
educate.
    Now, the Department gets knocked for this a lot, and I 
think we have all kept pressure on the Department. I have been 
on the other side of this boat too. But they have done a bit. 
You referred to the Navy. The Navy has been really active over 
the last year and a half partially out of real reason. I would 
also say that putting the standard out there, 800-171, is not a 
panacea. You are exactly right, Mr. Chairman. Compliance by 
itself is limited in what it can do. It can do things. What we 
used to call it on the Defense Science Board (DSB) is that it 
can raise cyber hygiene. That is good. It is like the broken 
window theory of crime. It does make the neighborhood a little 
better, but it is not going to solve it because you have an 
adversary. It is not just quality that you are trying to build 
a better airplane. You have an adversary.
    But it has over 100 controls. We still have multiple 
standards.
    But here is what we are missing, and we are all trying to 
work this. The insurance industry is going in this direction. 
The Deliver Uncompromised paper you referenced was trying to go 
there, trying to figure out how to monetize, how to turn 
security of cyber into something real that you can actually 
measure as an outcome. Compliance is an input. It is not an 
output. You really want to know if I did this, what percentage 
more secure am I. I can measure costs. If I have a radar, I can 
measure its performance. I can measure its schedule. I may not 
like the schedule, but I can measure it. I do not know how to 
measure cybersecurity. We have got to figure that out. Once we 
figure that out--and the insurance business is going there 
because that is what they are in--where we can start putting 
real objective metrics against this, then we will get there. So 
I am actually optimistic. In the next couple years, I think we 
will get there as a community. That is where we need to go.
    So there are other things we can do. We need a threat 
sharing center, not unlike the NCTC, the National 
Counterterrorism Center, where you got Federal Bureau of 
Investigation (FBI) sitting next to intel, sitting next to 
industry that can rapidly see what is happening. A company gets 
bought overnight. It was good. Now it is bad. We got to get 
that information out. Oh, by the way, the people that you got 
to get the information to do not have clearances. So we got to 
figure that out. But we got to go into a much more of an active 
model like that.
    There is experimentation going on, great ideas, of bringing 
secure cloud environments and making them available to the 
industrial base so they can develop inside a secure cloud. It 
is already being done in parts of the government right now. 
That is a great idea.
    There are other ideas we will talk about later.
    Again, thank you for having the hearing. I look forward to 
your questions.
    [The prepared statement of Dr. LaPlante follows:]


               Prepared Statement by Dr. William LaPlante
    Chairman Rounds, Ranking Member Manchin, and distinguished Members 
of the Subcommittee on Cybersecurity, thank you for the opportunity to 
testify before you today on matters relating to the cybersecurity of 
America's defense industrial base. This is a critically important issue 
and one about which I very much appreciate being asked to offer some 
thoughts.
    For those who don't know MITRE, we are a not-for-profit corporation 
that operates seven federally-funded research and development centers, 
or FFRDCs, for eight primary government sponsors. The largest of the 
FFRDCs we operate, the National Security Engineering Center, is 
sponsored by the Department of Defense. We also operate the National 
Cybersecurity FFRDC on behalf of the National Cybersecurity Center of 
Excellence, which is a component of the National Institute of Standards 
and Technology, or NIST. Of MITRE's roughly 8,500 employees, some 1,000 
are cybersecurity experts who support a very broad range of work on 
behalf of federal requirements. Our vantage point, which gives us the 
benefit of being able to look across multiple agencies at a wide array 
of threat vectors and challenges, is critical to our understanding of 
this problem set and greatly informs the advice we are able to provide 
to our sponsors.
    If I may, I would like to take a moment to congratulate the 
leadership of this Committee for having the foresight to establish this 
panel in the 115th Congress and for continuing it into the current 
Congress. There is no question but that the cyber domain is a critical 
warfighting domain today. This is unequivocally true, as you are all 
aware, for those who wear the uniform of our military and who are 
charged with defending against hostile cyber operations directed 
against our forces literally every day. But it is no less true for the 
thousands of companies that make up the nation's defense industrial 
base--companies that support our national security through the delivery 
of vital goods and services under contract to the Department of Defense 
and its components, and without whose support our forces would be all 
but ineffective. The men and women of our defense industrial base do 
not wear the uniform, but they are no less a target in this age of 
cyber warfare.
    Indeed, as the Members of this Committee well know, both from the 
near endless stream of media reporting we all see and the information 
you receive from both the Department and the many companies that 
comprise the managed cybersecurity services industry, our defense 
industrial base has been and remains under siege from hostile actors. 
The loss of intellectual property in recent years has been enormous, 
and it has allowed our adversaries to rapidly and dramatically advance 
the state of their warfighting and enabling technologies by leveraging 
our substantial investments in research and development. Our 
technological edge--which along with the quality of our men and women 
who serve, and the strength of our alliances with key partners, has for 
decades given us a vital advantage--has in many areas been compromised.
    While even the largest defense contractors have been victimized by 
the predatory cyber operations of our adversaries, the problem has been 
most acutely realized at the lower tiers of the defense industrial 
base, typically comprised of small- to medium-sized companies. These 
companies often serve as the sub-contractors and sub-sub-contractors to 
the primes. In many instances, they are start-ups or just barely 
removed from such status. They are often where some of the greatest 
innovations occur--the kinds of innovation that are, rightly, being 
pursued by the Department for integration into our most advanced 
warfighting capabilities.
    As the 2018 National Defense Strategy (NDS) noted,'' the 
Department's technological advantage depends on a healthy and secure 
national security innovation base.'' It also observed that the 
Department must streamline processes so more ``small-scale vendors'' 
can provide the Joint Force with those cutting-edge technologies needed 
to maintain our military advantage. I believe we can, and in fact we 
must, do both of these things--maintain a secure innovation base, and 
yet not overly burden smaller companies with such onerous and costly 
compliance mandates that it drives them away from doing business with 
DOD.
    The fact of the matter is, this is an extraordinarily difficult 
problem set. Many have decried the insufficiency of efforts to protect 
the defense industrial base, blame for which often falls on the 
Department of Defense. I have heard many who have suggested that the 
Department ``hasn't done enough'' to address this major challenge.
    From my perspective, I think the Department has actually done quite 
a lot. Most recently, it has adopted the NIST 800-171 standards for 
cybersecurity and integrated related requirements into the Defense 
Federal Acquisition Regulation Supplement (DFARS), with additional work 
underway on revisions to these standards. One of the questions that the 
Subcommittee posed in inviting me to testify today asked about my 
thoughts on the potential need for contractors to meet security 
standards beyond the NIST 800-171. The 800-171 specifies that defense 
contractors handling controlled unclassified information execute over a 
hundred separate controls on their systems. Achieving full compliance 
requires implementing all of the controls or equivalents. I will tell 
you that MITRE, with some 1,000 of what I would consider some of the 
world's best experts on cybersecurity, had an enormous challenge 
meeting the requirements of the 800-171. For companies that are much 
smaller than MITRE, with far fewer resources and far less cybersecurity 
expertise available, one can only imagine that additional requirements 
beyond the 800-171 will be incredibly burdensome. Complicating this is 
the fact that while DOD requires compliance with 800-171, other federal 
agencies utilize a different security standard. So if a contractor 
wants to do business with both DOD and, say, the Department of Homeland 
Security, it has to either operate under two different sets of 
requirements, or ratchet controls up to the highest instance.
    I would further make the observation that there is no measure or 
target for outcomes associated with implementation of the 800-171 
standard--for instance, was less data lost? While standards may have 
the potential to improve performance above a baseline level, they 
quickly lag behind evolving operating environments and emerging 
technologies. Most importantly, they quickly become the target of our 
adversaries, who familiarize themselves with our standards and look for 
seams they can compromise. We cannot lose sight of the fact that this 
threat is extremely dynamic.
    My point in highlighting this is to caution against an urge to levy 
even more security standards on contractors beyond those already being 
contemplated in the update of the 800-171 when the Committee sits down 
to draft this year's authorization bill. The danger is that you will 
either put contractors in a situation in which they will continue their 
efforts to support DOD but will ignore these requirements, or they will 
simply reject the idea of doing business with the Department or the 
Tier 1 contractors because the burdens are too great.
    On this score, I would suggest there is a real need to encourage 
the contractor community to consider implementing threat-informed 
defenses. Clearly, there are basic security standards--essentially, 
compliance-oriented requirements--that need to be met. But there is no 
substitute for understanding the nature of the threat vectors most 
commonly used by our adversaries--their specific tactics, techniques, 
and procedures, or TTPs--and using that awareness to inform where 
network defenses need to be beefed up to thwart the most likely or 
consequential cyber threats. MITRE has done a considerable amount of 
work in this area, and we make our ATT&CK framework--basically, an 
encyclopedia of adversary cyber TTPs that can assist security 
practitioners to best determine how to position their defenses, and 
where to invest limited resources to get the biggest bang for the 
buck--available at no cost, in keeping with MITRE's service in the 
public interest.
    With that said, let me offer some thoughts about some areas in 
which there might be some useful progress in this area, recognizing 
that there is no silver bullet and that none of these is going to be a 
panacea.
    Critical to a successful path forward, I believe, is the need to 
bend the cost curve on cybersecurity. We need to find ways to make 
cybersecurity architectures less expensive for the defense industrial 
base to implement.
    For example, I think there could be some value in encouraging DOD 
to work with the National Institute of Standards and Technology to 
recognize the defense industrial base as a key industry vertical. Such 
recognition would result in the development of practice guides and 
reference architectures tailored to the requirements of this community 
of interest. Again, I am not going to tell you this is a panacea. But 
such products could be used by some contractors--probably some of the 
medium-sized ones, at least--to model enhanced security postures. 
Clearly, there will be some who will find themselves unable to leverage 
such products or who have specialized requirements that may not be met 
by them. But NIST has generated other guidance--for example for use by 
the health care and energy sectors--that have certainly had utility.
    Another option that has been discussed--and was among the questions 
posed by the Subcommittee in its invitation--relates to making the 
kinds of Continuous Diagnostic and Mitigation (CDM) products that the 
``Dot Gov'' agencies are required by DHS to employ, also available to 
the defense industrial base. CDM is essentially a suite of commercial 
products that help federal agencies understand the details of their 
networks and systems and better monitor activities occurring on them. 
These tools can aid in identifying the inventory of connected devices 
on a network and help identify patching deficiencies or other security 
problems. Again, I would say there could be value in such an offering, 
but this, too, is no silver bullet. Performing timely patching and 
assuring basic network and system hygiene are a necessity, but this 
approach alone is insufficient to assure security. In today's computing 
environments, there is too often just no way to have full knowledge of 
what's on a network or a perfect ability to patch. A vulnerability scan 
one day may reveal a range of unknowns that may differ just a few days 
later. So again, not an end-all, be-all, by any means, but one 
potential set of tools that could help.
    One concept that I think has particular promise, which Under 
Secretary of Defense for Acquisition and Sustainment Ellen Lord in fact 
has advocated exploring, is the idea of one or more cloud environments, 
operated under auspices of DOD, that would be specifically tailored to 
the needs of the defense industrial base. Such DOD-sponsored cloud 
offerings would be fully compliant with the latest 800-171 or successor 
security standards, potentially relieving the contractor community of 
many of the burdens of managing their own architecture and security 
requirements. Such an infrastructure would allow the contractor 
community to access compute, storage, managed security, software 
development, and other services from one or more DOD-sponsored service 
providers. There are a lot of unanswered questions about this approach, 
not the least of which relates to the ultimate cost a contractor would 
have to bear to leverage these services. Presumably there are economies 
of scale that would be realized in such an instantiation that could be 
passed on to contractors. Moreover, if more than one such offering were 
made available, such an arrangement could generate additional 
competitive pressures that could help drive costs down. Certainly, 
there are other important questions that would need to be asked--for 
instance, would such an arrangement also address back office 
requirements like finance, human resources, and the like? What about 
specialized capabilities, like the computing requirements associated 
with, say, a laser cutting machine? Another important question: What 
would compel or incentivize contractors to avail themselves of such an 
offering? My own view on this is that an award from the government 
would be contingent on contractors--including any lower tier sub-
contractors who wish to be involved--meeting all specified security 
requirements.
    One additional thing I would emphasize here is the need for the 
Committee to look beyond just cybersecurity to also consider the 
broader challenges associated with the nation's supply chain. I realize 
this may extend the discussion beyond the writ of this Subcommittee.
    MITRE has developed a strategy we have called ``Deliver 
Uncompromised,'' designed to help DOD address the broader question of 
critical dependencies and other weaknesses in our supply chain. There 
are many aspects to this strategy, but one important recommendation 
calls for the formation of a whole of government National Supply Chain 
Intelligence Center (NSIC) to aggregate all-source data, both 
classified and unclassified, to share with at-risk operators and 
industry partners. The NSIC would operate as a shared national resource 
to develop and operate technologies for threat detection, artificial 
intelligence, and data analytics, enabling analysts to ``connect the 
dots'' among disparate data from a multitude of sources. While not 
nearly as large, it would be modeled on the National Counterterrorism 
Center, and would be populated with representatives from the 
intelligence, program, and systems engineering communities and have a 
broad range of authorities. It would serve as the center of excellence 
for supply chain strategic warning and risk assessment, including 
responsibility, for example, for determining the provenance of software 
destined for DOD, which often includes elements that originated 
overseas.
    Today, threat warnings to industry--if they occur at all--are too 
slow and cumbersome, leaving the majority of companies in the 
innovation base uninformed and exposed. Methods must be established to 
share threat information and recommendations with companies that are 
not cleared contractors. It is difficult to translate from classified 
threat data into unclassified warning, but this is a responsibility 
that should be assigned to the NSIC.
    With that, let me conclude by thanking the Subcommittee once again 
for offering me the opportunity to testify today. I will be pleased to 
respond to your questions.

    Senator Rounds. Thank you, Dr. LaPlante.
    Mr. Luddy?

 STATEMENT OF JOHN LUDDY, VICE PRESIDENT FOR NATIONAL SECURITY 
            POLICY, AEROSPACE INDUSTRIES ASSOCIATION

    Mr. Luddy. Chairman Rounds, Ranking Member Manchin, Senator 
Scott, members of the subcommittee, thank you for your efforts 
to highlight the importance of a secure supply chain and for 
inviting me to contribute to today's discussion.
    The Aerospace Industries Association represents nearly 340 
manufacturers, suppliers, and service providers across every 
sector and tier of the aerospace and defense industry. Our 2.4 
million people are the backbone of the American economy and are 
crucial partners in protecting our national security.
    Our industry is fully committed to partnering with the U.S. 
Government to stay ahead of cyber threats and ensure resilience 
throughout the industrial base. AIA has just issued a report 
called ``What's Next for Aerospace and Defense: A Vision for 
2050.'' The report paints a picture of the technologies and 
innovations that experts in our industry believe will be 
driving the way we move, connect, explore, and defend our 
interests 30 years from now. The future we envision is 
exciting, and it depends entirely on robust and reliable 
cybersecurity. So we share concerns raised by senior Department 
of Defense leaders about the cybersecurity of U.S. military 
systems and of our entire acquisition process.
    I also want to emphasize that we at AIA are pleased with 
the level and quality of dialogue we are having on this topic 
with DOD. Cybersecurity is discussed prominently at quarterly 
meetings of our chief executive officers (CEOs) with Under 
Secretary of Defense for Acquisition and Sustainment Ellen Lord 
and her senior staff. I also convene quarterly engagements with 
Vice Admiral David Lewis, Director of the Defense Contract 
Management Agency, and other DOD officials. We held the fourth 
of these meetings last week and have now institutionalized them 
as a forum to iron out the specifics of cybersecurity policy 
and implementation.
    This afternoon, I will focus on three areas: first, on the 
way DOD defines the information that contractors must protect; 
second, on the need for cybersecurity policy to be clear, 
consistent, adaptive, and scalable, both across DOD and with 
industry; and finally, I will highlight AIA's National 
Aerospace Standard 9933, ``Critical Security Controls for 
Effective Capability in Cyber Defense,'' which we are now 
seeking to improve and bring into wider industry use in 
collaboration with DOD.
    My first point is fundamental: the initial step in gauging 
appropriate cybersecurity is understanding what information 
needs to be secured. Obviously, classified information is 
clearly marked and handled through separate and secure 
channels. But DOD and industry also handle an enormous amount 
of controlled unclassified information, or CUI, some of which 
is further designated as covered defense information, or CDI. 
This CDI is the focus of our ongoing shared cybersecurity 
efforts.
    In August of 2015, DOD implemented a Defense Federal 
Acquisition Regulation Supplement (DFARS) cybersecurity clause 
that significantly increased the range of information that 
could be defined as CDI and thus needing protection to nearly 
everything that a major defense contractor uses to perform 
contracts for DOD. As a result, as specific DOD customers, the 
Army or Air Force, for example, determine and identify which 
unclassified information must be protected on contractor 
networks and in communications between the DOD and the industry 
supply chain, there has been a tendency to overprotect mundane 
or basic information with complicated marking requirements. 
There are over 100 categories of CUI in the National Archives 
Records and Administration CUI registry, and the guide to 
marking CUI is 41 pages long. DOD and industry must work 
cooperatively to identify the unclassified information that is 
truly important to our national security interests. The current 
definition of CDI must be refined so that our limited resources 
can be applied to the most sensitive elements of our 
unclassified information. With limited resources, if we try to 
protect everything that is currently considered CDI, we may 
under-protect the really important things.
    My second concern stems from the absence of a unified DOD 
approach to cybersecurity policy, which has led to different 
customers within DOD adding requirements beyond the current 
baseline requirement embodied in NIST Special Publication 800-
171. This too often occurs without any engagement with industry 
regarding the feasibility and costs associated with enhanced 
agency-specific measures. This lack of uniformity complicates 
the landscape and adds significant ambiguity as companies are 
expected to comply with a burgeoning list of service-unique 
requirements, resulting in segmented infrastructure, limited 
visibility, and duplication of resources within contractor 
networks.
    Further, industry strongly believes that the customary 
regulatory process should be followed for these new 
requirements, with industry feedback leading to a more 
coordinated and informed rule instead of the ad hoc service-by-
service approach that is occurring now.
    It is not practical, affordable, or safe for the government 
and industry to implement service-unique cybersecurity 
requirements and evaluation criteria because our adversaries 
will exploit the gaps this creates. We must have a unified 
approach to apply mass and strength to our solutions. Recently, 
to align the efforts of several DOD organizations, Under 
Secretary Lord issued two memos directing Vice Admiral Lewis to 
perform specific actions for contracts overseen by Defense 
Contract Management Agency (DCMA). We commend Ms. Lord for her 
efforts to bring clarity and urgency to DOD cybersecurity 
efforts. Her memoranda raise complex and important legal and 
policy issues, however, and it is essential that these be 
carefully and collaboratively assessed if we are to promote our 
shared objective of enhanced cybersecurity for DOD programs and 
the defense industrial base.
    I will close by discussing AIA's most recent tangible 
response to the cybersecurity challenge. In an effort to 
advance industry's partnership with the DOD, late last year AIA 
released National Aerospace Standard (NAS) 9933 to provide a 
better way for our companies to assess their vulnerability to 
the dynamic cyber threats we face daily. I provided a copy of 
the paper describing the standard to the subcommittee. It was 
developed to address two realities facing our industry.
    First, while we support having standards and reporting 
breaches, we have maintained that the DOD's implementation of 
NIST 800-171 constitutes a static solution to a dynamic 
problem. Adversaries are constantly evolving their tactics and 
consequently there are no silver bullets or one-time solutions 
that will address the challenges we face.
    Second, the dynamic nature of cybersecurity today makes it 
extremely difficult for small to mid-sized suppliers to create 
self-sustaining security programs capable of managing the risk 
posed by advancing adversaries.
    To set a viable cybersecurity baseline for the aerospace 
and defense industry, AIA developed NAS9933, which is built 
upon the Exostar Cyber Security Questionnaire and information 
published by the Center for Internet Security. The standard 
contains five capability levels. Instead of a one-size-fits-all 
checklist for compliance, this format establishes capability 
level 3 as a minimum performance level, with levels 4 and 5 as 
higher-level objectives.
    Let me briefly illustrate the different levels.
    A company that achieves capability level 3 has a solid 
performing cybersecurity risk management program and strong 
technical network protections in place to protect critical 
information, which make it harder for an adversary to penetrate 
the company's systems. This company has demonstrated that it 
understands the nature of advanced threats and is taking steps 
to address these threats.
    At level 4, a company can detect, protect against, and 
respond to advanced threats, for example, by using virtual 
machines and air-gapped systems to isolate and run 
applications.
    A company at level 5 has optimized network protection based 
on the changing nature of the threat, for example, by requiring 
multi-factor authentication for accounts that have access to 
sensitive data or systems.
    We intend for NAS9933 to establish the cybersecurity 
baseline in the aerospace and defense industry and to support 
government leaders' efforts to align with industry and move 
beyond minimal compliance toward greater risk- or threat-based 
security. As with all standards, NAS9933 is a starting point, 
and we look forward to developing it further to best aid our 
industry partners.
    To be clear, our standard is designed to serve as a 
maturity model of best practices for helping companies improve 
their cybersecurity programs. It is not intended to replace or 
supersede the government's mandated controls, nor should it be 
used as an evaluation tool to score companies and assign 
ratings. As I have stated, enduring DOD and industry 
partnerships need to be established and leveraged to 
continually evolve our collective approach to this problem. The 
DOD and industry bring unique perspectives, experiences, and 
equities to the table to address these challenges. Only by 
working together will we be successful.
    Senator Rounds. Mr. Luddy, I am going to have to ask you to 
wrap it up.
    Mr. Luddy. Yes, sir.
    In closing, AIA recognizes the national economic security 
threats from cybersecurity vulnerabilities and shares DOD's 
commitment to strengthening our cyber defenses. This issue is 
simply too important to be handled in a piecemeal approach 
without an enterprise-wide coordinated strategy. We also need 
more clarity on definitions so everyone knows what to protect 
and how. As we continue to work with DOD, Congress, and other 
stakeholders to address this threat, I hope that we can 
continue to progress toward a more unified approach across the 
Department, while also providing DOD contractors the 
opportunity to provide inputs on proposed approaches and 
facilitate the most effective, efficient allocation of 
resources to accomplish the common goal of greater 
cybersecurity.
    Again, thank you for the opportunity to meet today and 
discuss these issues, and I look forward to your questions.
    [The prepared statement of Mr. Luddy follows:]

                    Prepared Statement by John Luddy
    Chairman Rounds, Ranking Member Manchin, and Members of the 
Subcommittee:
    Thank you for your efforts to highlight the importance of a secure 
supply chain and for inviting me to contribute to today's discussion. 
The Aerospace Industries Association (AIA) represents nearly 340 
manufacturers, suppliers, and service providers across every sector and 
tier of the aerospace and defense industry; our 2.4 million people are 
the backbone of the American economy, and crucial partners in 
protecting our national security.
    Our industry is fully committed to partnering with the U.S. 
Government to stay ahead of cyber threats and ensure resilience 
throughout our industrial base. AIA has just issued a report called 
``What's Next for Aerospace and Defense: A Vision for 2050.'' The 
report paints a picture of the technologies and innovations that 
experts in our industry believe will be driving the way we move, 
connect, explore, and defend our interests thirty years from now. The 
future we envision is exciting--and it depends entirely on robust and 
reliable cybersecurity. So we share concerns raised by senior 
Department of Defense leaders about the cybersecurity of U.S. military 
systems, and of our entire acquisition process.
    I also want to emphasize that we at AIA are pleased with the level 
and quality of dialogue we are having with DOD on cybersecurity and 
other matters. Cybersecurity is a prominent topic at quarterly meetings 
of our CEOs with Under Secretary of Defense for Acquisition and 
Sustainment, Ellen Lord and her senior staff. I also convene quarterly 
engagements with Vice Admiral David Lewis, Director of the Defense 
Contract Management Agency (DCMA), and other DOD officials; we held the 
fourth of these meetings last week and have now institutionalized them 
as a forum to iron out the specifics of cybersecurity policy and 
implementation.
    This afternoon, I will focus on three areas: first, on the way DOD 
defines the information that contractors must protect; second, on the 
need for cybersecurity policy to be clear, consistent, adaptive, and 
scalable--both across DOD and with industry; and finally, I'll 
highlight AIA's National Aerospace Standard 9933, ``Critical Security 
Controls for Effective Capability in Cyber Defense,'' which we are now 
working to improve and bring into wider industry use in collaboration 
with DOD.
                  defining what needs to be protected
    My first point is fundamental: the initial step in gauging 
appropriate cybersecurity is understanding what information needs to be 
secured. Obviously, classified information is clearly marked, and 
handled through separate and secure channels. But DOD and industry also 
handle an enormous amount of Controlled Unclassified Information, or 
CUI, some of which is further designated as Covered Defense 
Information, or CDI. This CDI is the focus of our ongoing shared 
cybersecurity efforts.
    In August 2015, DOD implemented Defense Federal Acquisition 
Regulation Supplement (DFARS) cybersecurity clause 252.204-7012, 
``Safeguarding Covered Defense Information and Cyber Incident 
Reporting.'' This clause defines CDI as:

        `` . . . unclassified controlled technical information or other 
        information, as described in the Controlled Unclassified 
        Information (CUI) Registry, as maintained by the National 
        Archives and Records Administration, that requires safeguarding 
        or dissemination controls pursuant to and consistent with law, 
        regulations, and Governmentwide policies, and is----

             (1) Marked or otherwise identified in the contract, task 
        order, or delivery order and provided to the contractor by or 
        on behalf of DOD in support of the performance of the contract; 
        or

             (2) Collected, developed, received, transmitted, used, or 
        stored by or on behalf of the contractor in support of the 
        performance of the contract.

    With this rule, DOD significantly increased the range of 
information that could be defined as CDI--and thus needing protection--
to nearly everything that a major defense contractor uses to perform 
contracts for DOD. As a result, as specific DOD customers--the Army or 
Air Force, for example--determine and identify which unclassified 
information must be protected on contractor networks and in 
communications between the DOD and the industry supply chain, there has 
been a tendency to over-protect mundane or basic information with 
complicated marking requirements--there are over 100 categories of CUI 
in the National Archives Records and Administration (NARA) CUI 
Registry, and the guide to marking CUI is 41 pages long. DOD and 
industry must work cooperatively to identify the unclassified 
information that is truly important to our national security interests. 
The current definition of CDI must be refined so that our limited 
resources can be applied to the most sensitive elements of our 
unclassified information. If we drive resources to protect everything 
currently considered CDI, we will protect nothing.
                            clear dod policy
    My second concern stems from the absence of a unified DOD approach 
to cybersecurity policy, which has led to different customers within 
DOD adding requirements beyond the Defense Federal Acquisition 
Supplement (DFARS) requirement for contract compliance, the National 
Institute for Standards and Technology (NIST) Special Publication 800-
171, ``Protecting Controlled Unclassified Information in Nonfederal 
Systems and Organizations.'' This too often occurs without any 
engagement with industry regarding the feasibility and costs associated 
with enhanced, agency-specific measures. This lack of uniformity 
complicates the landscape and adds significant ambiguity as companies 
are expected to comply with a burgeoning list of service-unique 
requirements, resulting in segmented infrastructure, limited visibility 
and duplication of resources within contractor networks. Further, 
industry strongly believes that the customary regulatory process should 
be followed for these new requirements, with industry feedback leading 
to a more coordinated and informed rule, instead of the ad hoc, 
Service-by-Service approach that is occurring now.
    It is not practical, affordable or safe for the government and 
industry to implement Service-by-Service cybersecurity requirements and 
evaluation criteria because our adversaries will exploit the gaps this 
creates. We must have a unified approach to apply mass and strength to 
our solutions. Recently, to align the efforts of several DOD 
organizations, Under Secretary Lord issued two memos directing Vice 
Admiral Lewis to perform specific actions for contracts overseen by 
DCMA. We commend Ms. Lord for her efforts to bring clarity and urgency 
to DOD cybersecurity efforts. Her memoranda raise complex and important 
legal and policy issues, however, and it is essential that these be 
carefully and collaboratively assessed if we are to promote our shared 
objective of enhanced cybersecurity for DOD programs and the Defense 
Industrial Base. Accordingly, we have asked to engage with her staff to 
discuss ways to effectively and efficiently achieve these goals.
                    national aerospace standard 9933
    I will close by discussing AIA's most recent, tangible response to 
the cybersecurity challenge. In an effort to advance industry's 
partnership with the DOD, late last year AIA released National 
Aerospace Standard 9933, ``Critical Security Controls for Effective 
Capability in Cyber Defense,'' to provide a better way for our 
companies to assess their vulnerability to the dynamic cyber threats 
they face daily. It was developed to address two realities facing our 
industry.
    First, while we support having standards and reporting breaches, we 
have maintained that the DOD's implementation of NIST SP 800-171 
constitutes a static solution to a dynamic problem. Adversaries are 
constantly evolving their tactics and consequently there are no silver 
bullets and/or one-time solutions that will address the challenges we 
face. Second, the dynamic nature of cyber security today makes it 
extremely difficult for small to mid-size suppliers to create self-
sustaining cyber security programs capable of managing the risk posed 
by advanced adversaries.
    There is strong precedent for using this standards-based approach. 
AIA's National Aerospace Standards (NAS) program began in 1941. 
Standards reduce cost, increase safety, provide commonality, are 
recognized throughout industry, and are used by private, public, 
corporate, and government entities. National Aerospace Standards are 
voluntary and developed through a consensus-based process by the 
aerospace industry. Subject matter experts from AIA member companies 
participate in committees and working groups to develop and maintain 
the NAS library, which currently contains over 1,400 active standards.
    To set a viable cybersecurity baseline for the aerospace and 
defense industry, AIA developed NAS9933, which is built upon the 
Exostar Cyber Security Questionnaire and information published by the 
Center for Internet Security (CIS). \1\ The standard contains five 
capability levels. Instead of a one-size-fits-all checklist for 
compliance, this format establishes Capability Level 3 as a minimum 
performance level, with Levels 4 and 5 as higher-level objectives.
---------------------------------------------------------------------------
    \1\ Exostar is a cloud-platform company initially founded via a 
partnership with the major defense prime contractors and offers cloud-
based secure business collaboration solutions.
---------------------------------------------------------------------------
    To illustrate: a company that achieves Capability Level 3 has a 
solid performing cybersecurity risk management program and strong 
technical network protections in place to protect critical information, 
which make it harder for an adversary to penetrate the company's 
systems; the company has demonstrated they understand the nature of 
advanced threats and are taking steps to address these threats. At 
Level 4, a company can detect, protect against, and respond to advanced 
threats--for example, by using virtual machines and air-gapped systems 
to isolate and run applications; a company at Level 5 has optimized 
network protection based on the changing nature of the threat--for 
example, by requiring multi-factor authentication for accounts that 
have access to sensitive data or systems.
    We intend for NAS9933 to establish the cybersecurity baseline in 
the aerospace and defense industry, and to support government leaders' 
efforts to align with industry and move beyond minimal compliance 
toward greater risk- or threat-based security. As with all standards, 
there is always room for improvement. We view NAS9933 as just a 
starting point and look forward to developing it further to best aid 
our industry partners.
    To be clear, our standard is designed to serve as a maturity model 
of best practices for helping companies improve their cybersecurity 
programs. It is not intended to replace or supersede the government's 
mandated controls, nor should it be used as an evaluation tool to score 
companies and assign ratings. As I have stated, enduring DOD and 
industry partnerships need to be established and leveraged to 
continually evolve our collective approach to this problem. The DOD and 
industry bring unique perspectives, experiences and equities to the 
table to address these challenges--only by working together will we be 
successful.
    We have reason to believe that the Department of Defense supports 
our approach. Since we published NAS9933 last fall, several DOD leaders 
have praised the work and have begun to work with us to use it as the 
baseline for an enhanced standard for both industry and DOD 
cybersecurity activity. We welcome this next step and look forward to 
working together to improve protections across the cybersecurity 
domain.
    AIA recognizes the national and economic security threats from 
cybersecurity vulnerabilities and shares DOD's commitment to 
strengthening our cyber defenses. This issue is simply too important to 
be handled in a piecemeal approach without an enterprise wide 
coordinated strategy. We also need more clarity on definitions, so 
everyone knows what to protect and how. As we continue to work with 
DOD, Congress and other stakeholders to address this threat I hope that 
we can continue to progress towards a more unified approach across the 
Department while also providing DOD contractors the opportunity to 
provide inputs on proposed approaches and facilitate the most 
effective, efficient allocation of resources to accomplish the common 
goal of greater cybersecurity.
    Again, thank you for the opportunity to meet today and discuss 
these issues of vital importance to our nation's warfighters and 
industry. I look forward to your questions.

    Senator Rounds. Thank you, Mr. Luddy.
    Mr. Peters?

 STATEMENT OF CHRISTOPHER PETERS, CHIEF EXECUTIVE OFFICER, THE 
                          LUCRUM GROUP

    Mr. Peters. Chairman Rounds, Ranking Member Manchin, 
Senator Scott, Senator Gillibrand, members of the committee, I 
appreciate the opportunity to be here today.
    Over the last 2 years, I visited more than 200 small to 
medium-sized manufacturers, or SMMs, in the defense industrial 
base through work on various DOD-funded projects. I helped 
develop and analyze cybersecurity surveys that reached hundreds 
more. I have also been involved in the National Defense 
Industrial Association projects that looked at cybersecurity in 
the DOD supply chains.
    Before I talk about the findings from some of that 
research, I want to provide an important distinction between 
information technology, or IT, and operations technology, or 
OT.
    IT consists of business applications and equipment, such as 
financial resource planning or enterprise resource planning 
software. OT includes industrial control systems and software 
that run machinery on the shop or plant floor.
    IT typically uses modern operating systems and applications 
that are regularly patched and maintained. OT systems often 
consist of custom applications running on old operating 
systems, including Windows NT and even disk operating systems 
(DOS). They cannot be easily patched or upgraded, as they may 
impact production.
    In short, the cybersecurity vulnerabilities are 
considerably greater in OT than in IT. They are easily 
exploited portals to steal or alter information or even shut 
down production. One example is Lubrizol where hackers stole 
intellectual property through the industrial control systems 
and caused significant financial damage. Another example is a 
German steel mill where hackers got access to the industrial 
control systems and prevented the blast furnace from shutting 
down, causing significant physical damage.
    The distinction between IT and OT is important because it 
represents a significant risk to the industrial base.
    So through my work, there are three key findings I would 
like to highlight.
    Number one, the defense industrial base is at considerable 
risk. My written testimony has quantitative data that 
demonstrate the lack of awareness and understanding of the 
DFARS requirements and implementation of the NIST 800-171.
    The research shows that SMMs have a poor understanding of 
cybersecurity in general. They often do not understand the 
threats much less what to do about them.
    This overall lack of awareness and preparedness should be 
alarming. Large manufacturers typically have very robust 
security measures for both their business and operating 
systems. That makes the less knowledgeable and poorly defended 
SMMs in the supply chain a greater target for cyber attacks 
particularly since they often handle much of the technical data 
sent from those larger contractors. Whether the attack is to 
steal intellectual property, introduce defects into weapon 
systems, or to shut down entire operations, the SMMs are prime 
targets.
    Finding number two is that SMMs have been quitting defense 
work because of the new cybersecurity requirements. Rather than 
recognizing that these cybersecurity precautions are something 
that they should take regardless, they perceive the new DFARS 
requirements as just one more burden that the DOD is imposing.
    Finding number three, manufacturers are increasingly 
frustrated by uneven enforcement. The lack of established 
metrics against which to measure the level of compliance is 
viewed by many manufacturers as a weakness that other suppliers 
will exploit. That perception of inequality or lack of fairness 
is often a barrier to adoption of costly cybersecurity 
practices and solutions.
    I will highlight three of the recommendations from my 
written testimony.
    Recommendation number one, increase the emphasis on 
resilience to withstand attacks. One of the most important 
aspects of this situation is that the threat vectors are always 
changing, and attacks will happen. Yet, there has been very 
little discussion about resiliency. SMMs need help 
understanding how to design resilient OT systems, detect when 
an attack does occur, and then respond and recover.
    Recommendation number two is fuel the rapid development of 
OT cybersecurity solutions. The DOD should explore innovative 
means, such as grand challenges, to quickly raise awareness and 
spur development of OT-specific cybersecurity solutions.
    Recommendation number three is develop a means to measure 
and certify cybersecurity compliance, similar to what you heard 
before. Manufacturers have to have confidence that their 
investments in cybersecurity are going to meet DOD 
requirements. Large manufacturers also need a means to quickly 
and cost effectively assess the cybersecurity readiness of each 
manufacturer in their supply chains. That requires the 
establishment of meaningful metrics that can be readily 
certified, whether by a customer, the government, or an 
independent third party.
    In summary, the defense industrial base risks are great and 
much work is needed to mitigate these risks, particularly for 
industrial control systems. The SMMs do not have the resources 
to tackle these issues on their own. They need help if we are 
to rely on their capabilities.
    Thank you for your time, and I welcome your questions.
    [The prepared statement of Mr. Peters follows:]

                Prepared Statement by Christopher Peters
                              introduction
    Chairman Rounds, Ranking Member Manchin and distinguished members 
of the subcommittee. Over the past two years, I visited more than 200 
small- to medium-sized manufacturers (SMMs) in the Defense Industrial 
Base (DIB) through work on various DOD-funded projects. I helped 
develop and analyze surveys that reached out to hundreds more. One of 
the primary topics in my research was manufacturing cybersecurity in 
the defense industrial base. Through my involvement with the National 
Defense Industrial Association (NDIA), I was a senior advisor to the 
Cybersecurity for Advanced Manufacturing Joint Working Group, 
consisting of participants from industry, the Pentagon and other 
government agencies. I am also a co-author on the NDIA paper, 
``Implementing Cybersecurity in DOD Supply Chains.'' \1\
---------------------------------------------------------------------------
    \1\ NDIA, ``Implementing Cybersecurity in DOD Supply Chains,'' July 
2018. http://www.ndia. org/ - / media / sites / ndia / divisions / 
manufacturing / documents / cybersecurity - in - dod-supply-
chains.ashx?la=en
---------------------------------------------------------------------------
                               background
    Before I discuss some of the key findings from that research, I'd 
like to make an important distinction between information technology 
(IT) and operations technology (OT). IT consists of business 
applications and equipment, such as financial systems or enterprise 
resource planning software. OT includes industrial control systems and 
software that run machinery on the shop or plant floor.
    The priorities for protection of IT are confidentiality, integrity 
and availability. The priorities for OT are reversed, with availability 
being the most important. As an example, it's not uncommon to find 
plant floor computers with the password taped to the machine so that if 
there is a production problem, someone can log in and quickly correct 
the issue.
    IT typically uses modern operating systems and applications that 
are regularly patched and maintained. OT systems often consist of 
custom applications running on old operating systems, such as Windows 
NT or DOS. These systems cannot be easily patched or upgraded, as it 
may negatively impact production. Anti-virus software and firewalls 
cannot easily be added to OT environments, as they also may impact 
production.
    In short, cybersecurity vulnerabilities are considerably greater in 
OT than in IT. These are easily exploited portals to steal or alter 
information or even shut down production. One example of an OT breech 
is Lubrizol, where hackers stole intellectual property through the 
industrial control systems, causing significant financial damage. 
Another example is a German steel mill, where hackers took over the 
production control systems and caused significant physical damage.
    This distinction between IT and OT is important, because it means 
the cybersecurity threats to the DIB are even greater than most 
realize.
                              key findings
    Through my work, there are three key findings that I would like to 
present to this committee.
#1 The defense industrial base is at considerable risk
    Most of the SMMs surveyed rate the importance of cybersecurity on 
the plant floor a lower priority than IT and intellectual property, 
even though OT represents the greatest risk. Sixty percent of the 
respondents to the NDIA survey have not read the DFARS documentation, 
and 46 percent of those who did said that they found it difficult to 
understand. Forty-five percent of the respondents had not read the NIST 
800-171 publication, and only 40 percent of those who did felt that the 
document was clear and easy to understand.
    What the research found was that SMMs have a poor understanding of 
cybersecurity in general. They often don't understand the threats, much 
less what action should be taken. The educational information that does 
exist, such as the 170-page document titled ``NIST MEP Cybersecurity 
Self-assessment Handbook for Assessing NIST SP 800-171 Security 
Requirements in Response to DFARS Cybersecurity Requirements,'' is 
confusing and not written for SMMs, which often have little technical 
support.
    For companies that do understand the threats and want to act, the 
lack of viable solutions that do not negatively impact operations is a 
barrier to adoption. We found those companies that did begin adopting 
cybersecurity solutions tend to underestimate the cost of 
implementation by as much as a factor of 10.
    The overall lack of awareness and preparedness by the SMMs in the 
DIB should be alarming for a variety of reasons. The large 
manufacturers in the DIB typically have very robust security measures 
for both their business and operations systems. That makes the less 
knowledgeable and poorly defended SMMs a greater target for 
cyberattacks, particularly since they often handle much of the 
technical data sent from the larger contractors. Whether the attack is 
to steal intellectual property, introduce defects into military 
products or shut down entire operations, the SMMs are prime targets.
#2 Manufacturers are quitting defense work
    SMMs have quit defense work because of the new DFARS cybersecurity 
requirements. Rather than recognizing that these cybersecurity 
precautions are something they should take regardless, they perceive 
the new DFARS requirements as just one more burden the DOD is imposing.
    There are several factors that contribute to this situation. One is 
that the SMMs were not educated on the cyberattack threats and 
potential impact on their businesses, whether commercial or defense. 
Our findings have shown that there is an uneven awareness of 
cybersecurity risks and prevention, particularly for operations 
technologies.
    Compounding the challenges facing manufacturers is that the DFARS 
requirements were written largely for IT systems, and many of the 
controls cannot be easily implemented in manufacturing environments 
without causing harm.
    Finally, SMMs leaving the DIB cited a lack of clarity by the DOD on 
requirements, timing and enforcement. That lack of clarity is 
exacerbated by the confusing messages from many consultants, some even 
offering to help SMMs become ``DFARS Certified.'' There is no such 
thing as ``DFARS Certified.'' Many of these consultants have gouged the 
SMMs.
#3 Manufacturers are increasingly frustrated by uneven enforcement
    Manufacturers are increasingly frustrated by uneven enforcement of 
the DFARS cybersecurity regulations. Some companies have incurred 
significant overhead expense to become DFARS compliant, while 
competitors that have not acted or have simply lied about compliance 
are still winning DOD business.
    The lack of established metrics against which to measure the level 
of compliance is viewed by many manufacturers as a weakness that other 
suppliers will exploit. That perception of inequality or a lack of 
fairness is often a barrier to adoption of costly cybersecurity 
practices and solutions.
                            recommendations
#1 Better educate the SMMs
    Awareness is the first step in driving adoption, yet most SMMs in 
the DIB have not been made aware of the cybersecurity threats to their 
businesses. A coordinated government campaign should be targeted to the 
SMMs to raise awareness of the threats and the steps necessary to 
protect their businesses. Much like the ``Loose Lips Sink Ships'' 
campaigns of World War II, awareness campaigns are a cost-effective 
means to quickly spur the desired action throughout the entire U.S 
industrial base.
#2 Address the unique needs of operations technology
    A key recommendation in the NDIA ``Cybersecurity for Advanced 
Manufacturing'' white paper is ``Work with DOD stakeholders in 
cybersecurity policy, acquisition policy, sustainment policy, and 
procurement policy to ensure manufacturing requirements are adequately 
addressed in policy documents and implementation reviews; and develop 
separate guidance to protect OT networks where needed.'' \2\
---------------------------------------------------------------------------
    \2\ NDIA, ``Cybersecurity for Manufacturing Networks,'' October 
2017. P12 https://www. ndia. org/-/media/sites/ndia/divisions/working-
groups/cfam/ndia-cfam-2017-white-paper-20171023. ashx?la=en
---------------------------------------------------------------------------
#3 Increase emphasis on resilience to withstand attacks
    One of the most important yet overlooked aspects of this situation 
is that threat vectors are always changing and attacks will happen, yet 
there has been very little discussion about resiliency. SMMs need help 
in understanding how to design resilient OT systems, detect when an 
attack does occur and then respond and recover.
#4 Aggregate disparate manufacturing cybersecurity activities
    There are currently at least four organizations just within the 
Office of the Secretary of Defense addressing cybersecurity for 
industrial control systems. The NDIA ``Cybersecurity for Advanced 
Manufacturing'' paper recommends that the DOD ``Establish, and 
adequately fund, a new program for Manufacturing Cybersecurity 
Capabilities in the Industrial Base, with a DASD-level Champion and 
participation from the DHS.'' A concerted government message and effort 
are needed to achieve the desired results.
#5 Fuel the rapid development of OT cybersecurity solutions
    The DOD should explore innovative means, such as grand challenges, 
to quickly raise awareness and spur development of OT cybersecurity 
solutions. Such solutions should be designed to not only prevent 
attacks, but detect them as well.
#6 Develop a means to measure and certify cybersecurity compliance
    Manufacturers in the DIB must have confidence that their 
investments in cybersecurity meet DOD requirements. Large manufacturers 
also need a means to quickly and cost-effectively assess the 
cybersecurity readiness of each manufacturer in the supply chain. This 
requires the establishment of meaningful metrics that can be readily 
certified, whether by a customer, government agency or an independent 
third party.
                                summary
    In summary, the DIB risks are greater than many realize, and much 
work is needed to mitigate those risks, particularly for industrial 
control systems. The SMMs do not have the resources to tackle these 
issues on their own--they need help if we are to rely on their 
capabilities. Consider the following scenario.

        An adversary wants to disable production of weapon system parts 
        or components. DOD procurement data are publicly available and 
        provide a blueprint of the SMMs to target. By gaining access 
        through the industrial control systems at manufacturers 
        producing those parts, an adversary could plant undetected 
        malware that can disable the manufacturing equipment at a 
        predetermined time or when signaled. The adversary can then 
        disable tens, hundreds or even thousands of manufacturers on 
        command. Or, perhaps they just target two critical suppliers of 
        missile components. Such an event could have a profound impact 
        on the ability to produce and support any or all weapon 
        systems. This is not just a scenario for the future--it may 
        have already happened.

    Senator Rounds. Thank you, Mr. Peters.
    Mr. MacKay?

   STATEMENT OF MICHAEL P. MacKAY, CHIEF TECHNOLOGY OFFICER, 
                  PROGENY SYSTEMS CORPORATION

    Mr. MacKay. Chairman Rounds, Ranking Member Manchin, and 
members of the subcommittee, I would like to thank you for 
inviting me to testify this afternoon.
    Progeny Systems is a privately held defense contractor 
headquartered in Virginia that has just under 500 employees. 
Progeny is in the category of small large government contractor 
or perhaps large small government contractor and is a 
significant target for cyber attacks due to the highly 
classified nature of our work, as well as the number and types 
of our contracts. We know that attempts have been made to 
penetrate our network defenses, and we are fully dedicated to 
the implementation of the government's recommended policies, 
procedures, and controls as detailed in 800-171.
    As the Chief Technology Officer of our company, I can tell 
you that cyber defense is a top corporate priority. It is a 
priority because of the responsibility we have to our 
customers, and we fully understand that as a small company, our 
very survival is at stake. We are not a large prime contractor 
that is, as they say, too big to fail and too big to punish and 
that our first breach could be the last one.
    Most importantly, though, cyber defense is a priority in my 
company because all of our employees understand as Americans 
the threat that adversaries pose. Our overriding goal as a 
company is providing our warfighters with a competitive 
advantage no matter the battlespace. We cannot let our nation's 
adversaries steal technology that diminishes this advantage, 
and we have invested heavily in equipment, tools, and manpower 
to ensure that the NIST specifications are not only met but 
exceeded.
    Thus far, we have only been reviewed by one program office, 
Team Sub from the Department of the Navy, for compliance with 
the NIST requirements. We do not, however, have only one 
program office as a customer. We work for dozens of programs, 
each of which may have a slightly different interpretation of 
the NIST requirements. Smaller companies will find it 
impossible to be rated favorably if they are pursuing two or 
more differing interpretations of the controls and what is to 
be considered adequate or complete.
    As the committee considers this issue, I would strongly 
urge you to have one standard interpretation of the NIST 
requirements. In other words, set the bar high but set it once 
and hold everyone accountable to that single standard so that 
we are spared not only the additional cost, but also the need 
to adjudicate between differing and potentially conflicting 
direction.
    We view the NIST requirements as essentially putting locks 
on the doors and windows of your house and installing a 
security system. It is the baseline. It is what you would 
normally do. These measures are effective in keeping people out 
of your house who should not be there and letting you know if 
someone tries to break in. It is a starting point. They are 
useless, however, if you open the door to a stranger who wants 
to rob you. And this is where the private sector really needs a 
lot of help in the human factors area.
    We need to raise awareness and to train our own personnel 
to think of good cybersecurity hygiene as a natural part of 
their daily work lives. For technology developers who crave 
connectivity and collaboration, this is a huge paradigm shift. 
This is especially the case with the younger technology 
developers who, unlike us, grew up online and are more 
susceptible to phishing attacks and the other attacks that come 
directly from the Web.
    The guidance provided to date to us has been to seek out 
peers and share lessons learned. Although we are doing this and 
it is quite effective, we need to be more effectively 
confronting the threat. The Department of Defense must take a 
leadership role, and we need evidence-based best practices, 
curriculum, and effective training materials to educate our 
employees to help us train our employees. Cyber defense 
requires both tools and training to accomplish the mission.
    As a small company with limited resources, we feel there is 
merit to adapting the requirements based on each contractor's 
situation, size, and budget included. However, we must protect 
the technology according to its importance and find ways to 
help that industry partner, small or large, to protect it. 
Often the smaller companies like my own who have limited 
resources also have significant innovations. So we can have the 
best of both situations if we help those innovators continue to 
safely protect and pursue their work.
    Now, a major tenet of our development community is that no 
one has all the answers. That is a Team Sub tenet. Progeny 
Systems received help from the Navy in the form of a 2-day 
exercise with industry experts in a mock audit of our 
practices, and it was not just going through the checklist. It 
was the practical application reviewing our compliance. And the 
event was eye-opening and invaluable. A standardized, 
consistent, and regular consultation with experts and red teams 
like this would probably be the single most beneficial approach 
that could be offered by DOD to its contractors.
    We wholeheartedly agree that providing approved products to 
the community by the government based on a best of breed 
selection would be an excellent way to help the community, 
especially in the case of small businesses if the companies 
find themselves unable to acquire or develop the right controls 
themselves.
    In closing, I would like to thank the subcommittee once 
again for having the privilege to testify before you today, and 
I would be happy to answer any questions you might have.
    [The prepared statement of Mr. MacKay follows:]

                  Prepared Statement by Michael MacKay
                              introduction
    Chairman Rounds, Ranking Member Manchin, and Members of the 
Subcommittee, I would like to thank you for inviting me to testify this 
afternoon. My name is Mike MacKay and I am the Chief Technology Officer 
of Progeny Systems Corporation.
    Progeny Systems is a privately held defense contractor 
headquartered in Virginia that has just under 500 employees. Progeny 
Systems is in the category of ``small large Government contractor'' and 
is a significant target for cyberattacks, due to both the highly 
classified nature of our work and the number and types of our 
contracts. We know that attempts have been made to penetrate our 
network defenses and we are fully dedicated to the implementation of 
the Government's recommended policies, procedures, and controls as 
detailed in the NIST Special Publication 800-171 (NIST).
    As the Chief Technology Officer of our company I can tell you that 
cyber defense is a top corporate priority. It is a priority because of 
the responsibility we have to our customers, and we fully understand 
that, as a small company, our very survival is at stake. We are not a 
large prime contractor that is ``too big to fail and too big to 
punish'' and that the first breach could be the last one.
    Most importantly, cyber defense is a priority because all of our 
employees understand as Americans the threat our adversaries pose. Our 
overriding goal as a company is providing our warfighters with a 
competitive advantage no matter the battlespace. We cannot let our 
nation's adversaries steal technology that diminishes this advantage, 
and we have invested heavily in equipment, tools, and manpower to 
ensure that the NIST specifications are not only met but exceeded.
                              one standard
    Thus far, we have been reviewed by only one program office for 
compliance with NIST's requirements. We do not, however, have only one 
program office as a customer. We work for dozens of programs who each 
may have a slightly different interpretation of the NIST's 
requirements. Smaller companies will find it impossible to be rated 
favorably if they are pursuing two or more different interpretations of 
the controls and what is to be considered adequate or complete. As the 
Committee considers this issue, I would strongly urge you to have one 
standard interpretation of NIST's requirements. Set the bar high, but 
set it once and hold everyone accountable to that single standard, so 
that we are not only spared the additional cost, but also spared the 
need to adjudicate between differing and potentially conflicting 
direction.
                      importance of human factors
    We view the NIST requirements as essentially putting locks on your 
doors and windows and installing a security system. These measures are 
effective in keeping people out of your house and letting you know if 
someone tries to break in. They are useless, however, if you open the 
door to a stranger who wants to rob you. This where private sector 
defense contractors need the most help--in the human factors.
    We need to raise awareness and to train our personnel to think of 
good cyber security hygiene as a natural part of their daily work 
lives. For technology developers who crave connectivity and 
collaboration, this is a huge paradigm shift. This is especially the 
case with younger technology developers who, unlike us, grew up online 
and are more susceptible to Phishing attacks.
    The guidance provided to date for training has been to seek out 
peers and share lessons learned. Although we are doing this, we need to 
more effectively confronting this threat. The Department of Defense 
must take a leadership role, and we need evidence based best practices, 
curriculum, and effective training materials to educate our employees. 
Cyber defense requires both tools and training to accomplish the 
mission.
   adapting cybersecurity requirements based on contractor size and 
                             ability to pay
    As a smaller company with limited resources, we feel that there is 
merit to adapting the Cybersecurity requirements based on each 
contractor's particular situation, size and budget included. However, 
we must protect the technology according to its importance, and find 
ways to help that industry partner, small or large, to protect it. 
Often, the smaller companies, who have limited resources, are also 
those with significant innovations. We can have the best of both 
situations if we help those innovators continue to safely pursue their 
work.
      offer cybersecurity expertise and red-teaming to contractors
    A major tenet of our development community is that ``No one has all 
the answers''. Progeny Systems received help from one of our Program 
Offices, in the form of a two day exercise with industry experts in a 
``mock audit'' of our practices in January of this year, to review our 
status for 800-171 compliance, and the event was eye-opening and 
invaluable. A standardized, consistent, and regular consultation with 
experts and Red Teams would probably be the single most beneficial 
approach that could be offered by the DOD to its contractors.
          provide ``off-the-shelf'' architectures and products
    We wholeheartedly agree that providing ``approved'' products to the 
community by the Government, based on a ``best of breed'' selection 
process will be an excellent way to help the community protect 
themselves, especially if, as in the case of smaller companies, there 
are resource issues with acquiring or developing the correct controls 
and protections themselves.
                                closing
    I want to thank the Subcommittee once again for having the 
privilege to testify before you today and would be happy to answer any 
questions that you might have.

    Senator Rounds. Thank you, gentlemen. I most certainly 
appreciated all of your comments.
    Normally our tradition here is that we will work our way 
around the committee, and we will try to stick to 5 minutes 
within our assigned times. I will begin my questioning at this 
time.
    Gentlemen, section 1644 of last year's NDAA, National 
Defense Authorization Act, required the Secretary to promote 
the transfer of appropriate technology, threat information, and 
cybersecurity techniques developed in the Department of Defense 
to small manufacturers and universities and then to establish a 
cyber counseling certification program and to develop a regime 
of voluntary self-assessments.
    I would like to know if each of you--number one, are aware 
of the program. Second of all, how could this program be 
strengthened if you are aware of it? And finally, how should 
this program be expanded and shaped if it is successful? Dr. 
LaPlante, would you like to begin?
    Dr. LaPlante. Yes, I have heard of the program. I think it 
is a great idea.
    I think the central thesis here is we really have education 
to do. It is a lot about education. A lot of us believe the 
best ideas will come from the small businesses once they 
understand it.
    As an example of what is happening right now, there is 
something called an adversarial, for lack of a better word, 
attack vector. It is not unlike a criminal casing out your 
house. There is a series of things that an adversary in cyber 
does to look at you, to do reconnaissance, then to penetrate, 
get in, and then do whatever they are going to do, either put 
something in there, do damage, or take something. Believe it or 
not, there are about 150 steps that people have outlined of how 
this is done, and it changes about every week.
    What MITRE has done--and other companies have done the same 
thing--is we made those steps publicly available. So if you 
want to know how to prevent the guy from getting in your 
network, this is how he does it. This is what the criminal does 
next, then that. Oh, now if you plug this, he is going to go 
over here. And what is good about that is that you start 
getting the defenders to be very sophisticated.
    People say, well, gee, publishing that is bad. People will 
learn how to do cyber. Well, the people doing it on cyber know 
how to do it. Our rule of thumb in making it an open source, if 
it is an open source already and published about a threat 
vector, we will publish it. So there are things like that that 
if you go to the programs, Senator, that you described and we 
can get people to understand this is how the threat thinks, 
then you can do things that makes his job hard.
    Senator Rounds. Mr. MacKay, same question.
    Mr. MacKay. I completely agree with the doctor's comments.
    The first thing that I want point out is that we are in a 
situation where you are not paranoid if somebody is actually 
out to get you. We need to start thinking about the fact that 
we should be paranoid. We should be paranoid in a constructive 
way.
    We have been on the receiving end of a great deal of this 
kind of information, some of which has been provided in a 
classified setting, and the more information that can be 
sanitized out of that kind of a report and put into a format 
that can be published company-wide as open source, as 
completely open to our employees so they understand the 
techniques and the methods, the better for us because we cannot 
get classified meetings put together that easily or that 
quickly.
    Senator Rounds. Thank you.
    Mr. Peters?
    Mr. Peters. I am not aware of that program directly, and 
none of the suppliers that I have talked to have ever mentioned 
that program. If an element of that program is to promote 
education, disseminate information to the defense industrial 
base, that is certainly a positive thing.
    My one recommendation would be that it needs to be done 
directly to the small to medium-sized, not just through the 
Original Equipment Manufacturers (OEMs) or prime contractors.
    Senator Rounds. Thank you.
    Mr. Luddy?
    Mr. Luddy. I am not familiar with that program by name 
either, Senator, but I do know that Under Secretary Lord has 
taken a pretty aggressive look at how, together with the large 
primes, we can work to support the middle and lower tiers of 
the industrial supply chain to be secure. We recognized this 
early on when the NIST standard was initially promulgated that 
while the big companies were essentially almost entirely 
compliant immediately, that the middle and lower tiers were 
going to have a more challenging time. Now, to a large extent, 
our prime contractors work very hard with their supply chains 
to do that.
    One of the good ideas I think that the Department is 
looking at is the prospect of actually providing people and 
cloud-based capability to the middle and lower tier companies 
to help them understand the threats and meet the requirements 
of security that are out there. So we support that very much.
    Senator Rounds. Great. Well, I think the Achilles heel in 
this whole process is that we want to use lots of different 
subcontractors. In many cases, some of our most innovative 
contractors are those subcontractors that are small. We do not 
want to lose their capabilities and what they have to offer. 
And yet, we have to have a program in place that allows them to 
assure us of the best types of protections that we can possibly 
get with regard to cybersecurity so that there is a standard of 
acceptance and a standard of capability that is there 
regardless of the size, and how we go about getting there is 
part of our challenge today.
    Senator Manchin?
    Senator Manchin. Thank you, Mr. Chairman.
    Maybe you can break this down for me. Basically most of the 
contracts that go from DOD are given to larger contractors. 
Correct? So the smaller subcontractor, no matter how great its 
idea, innovation, or creation may be, very seldom ever directly 
gets a contract from DOD.
    Mr. MacKay. If I could offer a differing perspective, 
Senator. Progeny Systems is a prime contractor to the Navy for 
a number of very important programs, including the 
cybersecurity controls for the submarine.
    Senator Manchin. So you have a direct contract.
    Mr. MacKay. We have a direct contract.
    Senator Manchin. So I would say you have to meet certain 
security guidelines and have people that have received security 
clearances. Right?
    Mr. MacKay. Yes, sir.
    Senator Manchin. Are you having problems getting your 
clearances?
    Mr. MacKay. No, sir, we are not.
    Senator Manchin. I understand there is a backlog of 
security clearances.
    Mr. MacKay. There is.
    Our biggest effort, though, is we have to do the same 
controls and we have to be just as careful as the large 
companies on a small company budget.
    Senator Manchin. Well, I am saying that everyone should 
meet the same standards you are meeting. I do not understand 
why we let the small contractors get by just because they are 
small. I do not know why we do not hold the larger contractors, 
who are responsible for the contract, accountable to make sure 
the subcontractors they are hiring have protections.
    Mr. MacKay. Yes, sir.
    Dr. LaPlante. In my experience, Senator, when I was an 
acquisition executive, the knowledge a lot of the primes had of 
their detailed supply chain was very mixed, surprisingly so. 
And some of that is on the Government.
    Senator Manchin. Was very what now?
    Dr. LaPlante. Surprisingly uneven, even knowledgeable of 
who is a sub to whom and what contracts they have.
    Senator Manchin. Who hires the subs?
    Dr. LaPlante. Usually the prime.
    Senator Manchin. The prime is hiring people. They do not 
know who they are?
    Dr. LaPlante. No. The primes hire people who they know, but 
sometimes when you look at the contract between the prime and 
the subs--the Government may not have access to it--you find 
out the contract may not have the requirements in it for 
quality or something else.
    Senator Manchin. Is that the way that the contracts are 
written?
    Dr. LaPlante. They can be. They can be. It depends on the 
contract.
    Senator Manchin. So basically a contract from the Navy or 
Air Force----
    Dr. LaPlante. No. What I am talking about--I am sorry, 
Senator. This is a contract between a prime and a 
subcontractor, not between the Navy and the prime.
    Senator Manchin. No. I am saying, first of all, if I put 
out criteria that I want every contractor to meet if they bid 
and they were successful, I do not care who does the work. They 
have to meet this criteria.
    Dr. LaPlante. You absolutely could do that.
    Senator Manchin. But we are not doing that now.
    Dr. LaPlante. I am saying it is uneven. But I defer to my 
colleagues. But I was surprised at how uneven the----
    Senator Manchin. Just trying to get a handle on this.
    Okay, go ahead, Mr. Peters.
    Mr. Peters. Senator, so there are two challenges. First of 
all, there are a lot of companies that I know of, small machine 
shops, that have multimillion dollar contracts directly with 
the government that are not cleared, but they are producing 
things that help keep airplanes flying and tanks----
    Senator Manchin. Are those all confidential?
    Mr. Peters. No. They are still critical. You still have 
critical----
    Senator Manchin. Yes, but I mean, everybody knows what the 
part is and who is making it.
    Mr. Peters. Right.
    But the issue with the contractors--one of the challenges 
is that if I have got a supply chain--there are 23 different 
contractors that make the primary shaft for the Chinook 
helicopter. 23 and that is just for the primary shaft.
    Senator Manchin. Just the shaft.
    Mr. Peters. So the problem is that the prime contractor 
knows who its immediate supplier is. They do not know who is 
beyond them, third, fourth, fifth tier and so on. You have 
flow-down requirements.
    Senator Manchin. Why would they not?
    Mr. Peters. Because the contractors, especially the prime 
contractors, consider that to be their private information. If 
I let you know who my contractors are and who my supply chain 
is----
    Senator Manchin. That is the person you will bid against 
the next time.
    Mr. Peters. Exactly.
    Senator Manchin. I really do not care.
    Mr. Peters. I agree.
    Dr. LaPlante. Your points are well taken. We are just 
describing how it is.
    Senator Manchin. We can change that.
    Dr. LaPlante. You can change it. That is right.
    Senator Manchin. We are all on committees that can change 
contracts.
    Dr. LaPlante. That is right. But the knowledge of the 
primes, to the point, of the sub to the sub to the sub is 
uneven.
    Senator Manchin. That is awful. That is absolutely 
unbelievable.
    Mr. Luddy, do you have anything to add?
    Mr. Luddy. I was just going to add, Senator, that I believe 
the legal concept here is of contract privity. And a contractor 
has privity with its immediate subcontractors, but not with 
that subcontractor's subcontractor.
    Senator Manchin. Somebody has to be held accountable.
    Mr. Luddy. These are the kinds of things that I think we 
are trying to work through, and DOD is trying to work through.
    Senator Manchin. Would you all be objectionable if we wrote 
the standard of how contracts are left to the prime?
    Mr. Luddy. I think we are concerned about anything that 
will inhibit good information sharing about the----
    Senator Manchin. Right now, there is no information 
sharing. If you are a prime, you do not know who the subprime 
is or the subprime to the subprime.
    Dr. LaPlante. Senator, I think what you are getting at is 
the following, and I think this would help tremendously. 
Holding more accountability to their supply chain and knowledge 
for the primes, however we do it and dealing with the legal 
issues, that would be greatly helpful.
    Senator Manchin. It is mind-boggling.
    The private sector does not work this way. Does it? The 
private sector does not work this way that I know of. I have 
been in business a long time. I have never seen private 
contracts working this way. Someone is held accountable and 
responsible all the way from the top to the bottom. Right here 
you can pass the buck all day long.
    You take a shot at this.
    [Laughter.]
    Senator Rounds. Okay. Let me offer an alternative. If 
anybody who was providing anything to a contractor or a 
subcontractor or, for that matter, anything down the line, was 
simply identified as being responsible to a certain standard or 
who was subject to audit so that it was not necessarily 
knowledgeable to the other subcontractors or other contractors 
that this was their supply chain, but rather that they were a 
licensee to perhaps the Department of Defense to where there 
was a standard that they had to meet, would something like that 
be an alternative so that you had an entire base of perhaps 
thousands of subcontractors who had met a particular criterion 
that would then be allowed to be within the chain? Is something 
like that available, or has that been tried to the best of your 
knowledgeable?
    Mr. Luddy. Senator, one of the objectives of our standard 
is to try to have within industry a self-regulating effort to 
set levels of cybersecurity so that a prime will know going 
from one subcontractor to another that these companies have met 
levels of security. In the case of the NIST standard now, which 
requires system security plans and programs to remediate any 
security flaws, those can be audited. That presents a resource 
problem for the Department of Defense, which has a limited 
number of resources and people to apply to auditing, but that 
is a possibility.
    We are concerned about the prospect of the system security 
plans (SSPs) and Plans of Action and Milestones (POA&Ms), as 
they are called, being automatically provided or provided just 
on a widespread basis because they contain, frankly, sensitive 
information about a company's economic viability, security 
viability, and so forth. They can have real implications in the 
business sense for what our companies need.
    Obviously, there is always the option of an audit, but it 
is a resource challenge for the Department.
    Dr. LaPlante. Mr. Chairman, I would add to what my 
colleague said this following concept. Once you have such a 
list that you described, then it is really important to have 
this active like a counterterrorism center to watch the list, 
watch what changes. We found in similar things some of the 
worst problems happened when overnight somebody on the list 
that had been approved gets bought by somebody else. So you got 
to be very active in watching it, but it could work.
    Senator Rounds. Mr. MacKay, I have a question for you. You 
are a small contractor.
    Mr. MacKay. Yes, sir.
    Senator Rounds. Yet, clearly you have been successful. Do 
you employ other subcontractors?
    Mr. MacKay. Yes, we do.
    Senator Rounds. Can you describe for us the process that 
you have to work through in order to qualify them so that, 
within your own guidelines, you are comfortable that they have 
met certain standards?
    Mr. MacKay. Yes, Senator. When we have a particular 
contract to satisfy, we consider industry partners. One of our 
approaches is to have specially selected industry partners that 
we work with almost exclusively so that we have better control 
over their own security practices. And rather than relying on 
their resources and their infrastructure for things like 
security controls, we bring them into our IT infrastructure and 
our project infrastructure so that they are using our controls 
when they do development on our projects. So we try to 
encapsulate their work into our way of doing the NIST controls 
and keeping things safe.
    But to the points of the other gentlemen, we have machine 
shops that we hand off work to. And, you know, Junior Smith has 
a laptop that he has used on his lathe since forever and you 
got to try to explain to him that he has got to be more 
careful. So what we have to do is flow down help to those 
people so that we give them information in a form that cannot 
be or is more difficult to be compromised. I think that is a 
model that we can pursue.
    We are a contractor, subcontractor of Lockheed Martin, and 
Lockheed Martin assesses us the same way that we assess the 
people that work for us. So the flow-down is critically 
important, and each step of the management process has to take 
ownership. But the guy at the top who has the prime contract 
has to take on the responsibility of seeing things all the way 
down to the bottom, and they have to ask the hard questions.
    Senator Rounds. I think that is the part that Senator 
Manchin was bringing up: how far down is that, because as you 
have indicated, you go down to, even in this case where you 
have a subcontractor, who may very well be using a separate 
subcontractor themselves, who is simply machining a particular 
part--they will have competencies and capabilities that are at 
least at risk with regard to that particular product that they 
are supplying to your subcontractor.
    Mr. MacKay. Exactly. Yes, it is a very difficult problem, 
and we have spent countless hours worrying about this issue 
because it gets very complicated very quickly. If I hand a 
document over to somebody to create a part, then I have to ask 
them how they are going to be managing that document and who 
they are going to give it to. They could lie to me. They could 
say, yes, we are going to do this and at the last minute, hand 
it off to somebody who came at a lower bid and not tell me. We 
have to find a way to go back to them and say, so you just 
delivered this part. Look me in the eye and tell me that you 
did not change our approach. We can cancel the contract. We can 
fire them. But to be absolutely sure they did not----
    Senator Rounds. By then, it is too late because that has 
been entered into the supply chain.
    Mr. MacKay. Yes. So it is a very difficult problem. I think 
we have to do as much as we can to take responsibility for what 
we can see and the contracts that we let, and we should be held 
responsible absolutely when things go wrong. We go to the 
limits I think of what we can reasonably do in the execution of 
our contracts. But it is not going to be infallible.
    Senator Rounds. Thank you.
    Senator Manchin, your turn.
    Senator Manchin. It is probably best that I do not say a 
whole lot.
    Just call the Chinese and ask them how they did it. It is 
pretty easy. This is not hard to follow right now. I think a 
blind person can follow this. We wonder why we have been hacked 
so much, why they have copied everything. You all just 
explained it. There are no checks and balances. It looks like 
to me that we are protecting a business model more than we are 
the security of our country. That is it in a nutshell I think. 
You are afraid somebody else is going to come and get somebody 
else, and if they do, they will go around that person to get 
them directly and take them out of this chain. I see that.
    I mean, I used to write RFP's all the time. An RFP is an 
RFP, request for proposal, and here is how it is going to be 
done. If you do not do it, you are not in compliance. You will 
be held liable, be sued out the ying-yang because you broke it. 
Do you sign RFPs?
    Mr. MacKay. Yes.
    Senator Manchin. And you agree to the terms of the RFP?
    Mr. MacKay. Yes, we do, Senator.
    Senator Manchin. Do you have people sign RFPs to you?
    Mr. MacKay. Yes, absolutely.
    Senator Manchin. Have you ever gone after someone legally?
    Mr. MacKay. To my knowledge, we have not, but the T in my 
title does not usually give me insight into the business side 
of----
    Senator Manchin. I would say there would be different types 
of categories. The Defense Department is going to be required 
to do some things that are not top secret, and some things that 
we have are top secret and we hold primes responsible in 
different ways because of what we are working on. But I would 
think everybody in that food chain is going to be held to the 
highest standard, but you are telling me it does not work that 
way as it goes down the food chain. Correct?
    Mr. MacKay. Well, Senator, I think that we hold everybody 
to the highest standard that we physically can control because 
we know what we know, and if somebody decides to go around our 
back and go to a different supplier--they go to China for a 
part or they go somewhere else that compromises the 
information--and they lie to us, we have to be able to have a 
way to find out that they have done that. That is a difficult 
proposition.
    Senator Manchin. If they have to make all their software 
and everything applicable to your RFP, they got to turn 
everything over. It should not be too hard to track it.
    Mr. MacKay. That would be great.
    Senator Manchin. Tell me what you need. Just tell us. That 
is why you are here. We are here to fix it and you are here to 
tell us what is broken.
    Mr. Luddy. Senator, I would say two things in response to 
the very legitimate concern you are raising.
    One is that there should be a threshold security that 
everybody needs to meet. I think our standard is an effort to 
do that. The DOD made an initial effort to do that with 800-
171. And both of those efforts are going to continue and I 
think strengthen. We all have that objective.
    Another thing that I alluded to in my testimony is that 
right now there is perhaps an over-sharing of information 
across programs. Somebody working on a bolt does not 
necessarily need the same level of information from the 
government as somebody working on a guidance system or a 
navigation system, for example, to oversimplify it. So the 
Department I know is looking at that. I think that would be a 
welcome way to deal with it.
    So I think the more that we can control and define the 
kinds of information that get transferred, the smaller bucket 
of the problem we will have.
    Dr. LaPlante. Senator, just a couple, two points really 
quick.
    One is an idea that sometimes comes up--and it is not 
perfect--is there are some programs where we just do not reveal 
the suppliers. Period. When I was Assistant Secretary, we 
ordered the bomber for the Air Force. At the press conference, 
they said who is building the engines. We said we are not 
telling you. Now, of course, we do not think the Chinese will 
at some point figure that out. But there is something about 
protecting things that you would not think would be protected. 
So that is one point.
    The second point is where you are going. I will draw an 
analogy. When I was Assistant Secretary, when I had a 
frustrating problem in a program, a missile, and it was 
failing, we would find out it was not the prime. It was a sub 
to a sub of the prime. Well, I still held the prime 
accountable. I do not think there should be any difference with 
this.
    Senator Rounds. But by then, it is too late. Is it not?
    Dr. LaPlante. Oh, it is. But it is well known that the 
prime knows that if the inertial measurement unit (IMU) on the 
missiles failing was made by a mom and pop shop, that is in 
their incentive contract for the prime. So why is it not the 
same for cyber? That is the question.
    Mr. Peters. So, Senator, there are two points I would make. 
This situation is much worse than many people realize.
    One is that--you are absolutely right--the flow-down 
requirements, while they do flow down, as you get to the 
smaller to medium-sized manufacturers, they do not always take 
the time to read them, to conform to them. I have been through 
flow-down requirements that still have Y2K provisions and anti-
segregation provisions in them. So it gets very confusing. They 
get very long. It is hard to do.
    The other challenge we have is that the DOD makes all 
information, contractual and transactional information, public, 
90 days delayed, but it is still public through several 
databases. There are companies that aggregate all of this data 
and actually sell it in 37 different countries. So all that 
data is out there. I can find the suppliers that make parts and 
pieces for any aircraft, any ship, any land vehicle. It 
essentially provides a blueprint of if you want to go after a 
certain weapon system, whether to get information and steal it 
or to----
    Senator Manchin. Do they give you an email account on it 
too?
    Mr. Peters. Pardon me?
    Senator Manchin. Email accounts on that too so you can go 
right to it easily to hack?
    Mr. Peters. Maybe not quite that level, but they do have 
the contract information through SAM, System for Award 
Management, for all of the contract----
    Senator Manchin. Let me just bring up something, if I can, 
real quickly.
    You all are here because you understand the system much 
better than we do. We know something is wrong. China could not 
have the success they have had in such a rapid amount if it had 
not been for us. We all know that, and we know what they do on 
a daily basis. We know what Russia is doing. We know what all 
these countries are doing. If you have been on Intel and you 
have been on Armed Services, you are going to get the flow.
    Nobody is willing to step to the plate and fix it. You are 
shaking your head thinking we have got to be the stupidest 
people in the world to let this happen. And that is what we are 
saying. We do not want you to jeopardize your business, your 
contracts, or anything. But somebody has got to come and we 
have got to put a stop to it.
    Senator Rounds. Let me follow up. It would appear to me 
that within the Department of Defense, not only do we need a 
consistency from one department to the other, but there has to 
be a way of communicating so that the challenges that you face 
and the challenges that we are learning about as we move 
through and that we are now trying to publicly share with a 
committee meeting like this in the open--and as you know, most 
of our Cyber Subcommittee meetings are in a classified setting 
because we do not talk about this. We decided intentionally to 
do this one in the public so that we could draw attention to 
how serious this was and to also suggest something else, and 
that is that you need to have a way in which you can 
communicate with the Department of Defense.
    Today, as you work your way through this process, clearly 
this is not something that you have not thought about before. 
Clearly it is something that you are aware of and you had 
concerns about or you would not be here.
    When you look at these things, is there a way today in the 
system for you to share with the individuals that you contract 
through the Department of Defense, through the different 
branches and so forth, different offices, procurement offices--
is there a way for you to share and express and participate in 
trying to improve the acquisition process? Is there a process 
there right now that you are aware of?
    Mr. Peters. So, Senator, again, I spend most of my time 
with small to medium-sized manufacturers in the defense 
industrial base. When I let them know, though, I was going to 
be testifying, I was overwhelmed with issues they wanted me to 
raise, and I got a list this long. I had to really boil it 
down.
    The challenge is that there are some venues to do that. 
However, what we find is that most of the manufacturers (I 
focus on manufacturing) are reluctant to say anything, whether 
it is directly through the DOD, through procurement technical 
assistance centers, or any of the different kinds of venues 
they have, because they are afraid of reprisal. I have a number 
of horror stories of reprisal from the DOD because somebody 
spoke up, they raised their voice.
    So unless there were some way for you to gather this 
information anonymously--and that is one of the reasons I get a 
lot of this insight. When I do my research, I promise the 
subjects anonymity. They spill the beans. But unless there were 
some way for you to do that, either through a university that 
was doing this research or through some independent third 
party, I think you are always going to have this fear of 
reprisal.
    Senator Rounds. You know, the National Aeronautics and 
Space Administration (NASA) actually has a program for pilots 
who, when they see something that is unsafe within the system, 
can fill out a form. Basically even if they messed up on a 
federal aviation regulation or if they have done something, as 
long as they fill that form out and advise through NASA that 
there is a safety issue involved in a particular place, whether 
it is going into a particular airport, working under a 
particular type of airspace, or whatever--when they fill that 
out and send it in, this is what is used to actually make the 
entire system work better long term. What you are saying is 
that really does not exist right now within the defense 
acquisition system. But perhaps something along that line may 
be----
    Dr. LaPlante. Yes, Mr. Chairman. I think there is also a 
program very much like you described called Aviation Safety 
Information Analysis and Sharing (ASIAS) with the Federal 
Aviation Administration (FAA), that the airlines have gotten 
together and they have agreed to have a safe sharing 
environment by pilots. There is something to that.
    I draw the analogy. When you have an air incident in the 
Air Force, they first get the root cause, and the people that 
are talked to, complete immunity. You say whatever you want. 
They do not do the punishment thing. They want to get the 
facts. You separate that later if you say we need to do some 
discipline, do that later with a different group. But it is to 
foster that environment that you are talking about.
    Senator Rounds. One other item that comes to mind as I 
listened to the discussion here. The thought that there would 
be reprisals coming back through DOD for a subcontractor or a 
business entity to report something which would be a threat to 
national defense is of real concern. While we are not naive 
enough to think that that may not be occurring, it seems to me 
that some of that has to do with the culture within the 
different organizations.
    I would call to mind most recently the Department of the 
Navy just put out their current cyber analysis, and they were, 
in my opinion, very straightforward, and they went into some 
detail about their own challenges. In a way, it was like going 
to confession. But they did more than that. They actually 
recognized that they are an information operation. They may 
have a goal of getting 355 ships, and it is not the fact that 
our near-peer competitors are stealing our ships. They are 
stealing our information. If we are going to protect our ships 
with all sorts of systems, what is it that we are doing to 
protect our information, which clearly is just as valuable, if 
not more valuable? I think that openness on the part of the 
Department of the Navy is something that may very well suggest 
the changes needed within the culture not just of the Navy but 
elsewhere within DOD as well.
    I am seeing heads nodding, but I would love to have your 
thoughts that perhaps that is part of the discussion that we 
need to participate in.
    Mr. MacKay. Senator, I can contribute that our experiences 
with the Navy, and in particular Team Sub, has been that they 
have grabbed this problem by the horns. I think there would be 
repercussions if we did not report issues that we are seeing in 
cyber defense and in the way that they are conducting their 
activities and looking at the problem. They are pushing us. 
They are teaching us. They have really taken the forefront.
    But I think the discussion across the board here shows how 
it depends on each Department of Defense and each program 
office even, and you do not have a consistent approach across 
the board. Something that pushes down from the top that sets 
policy and sets the approach would be very valuable. I would 
offer the Department of the Navy as a good example of how it 
should be done because we have had nothing but encouragement 
and help from our Department of Defense partners.
    Dr. LaPlante. I would also say there is a part of the 
Navy--and this is a culture thing--the submarine Navy. They 
have a culture maybe because they are nuclear trained to get 
the facts. Do not just look to shoot somebody. There is a 
famous admiral who ran Strategic Systems Programs (SSP), which 
is the submarine ballistic missile part of the navy. Malley's 
Rules. Rule number one is tell bad news fast. It never gets 
better with age. You got to have that in the culture. And I 
think you are seeing some of those glimpses. We should get that 
out there more on this topic.
    Now, at the same time, you want to hold people accountable. 
So you have to reconcile how you do both at the same time. It 
can be done.
    Mr. Luddy. I think Dr. LaPlante is highlighting something 
really important. This does raise a tension, though, between 
the very important information sharing about threats, breaches, 
methods of addressing threats that we are trying to promote 
within industry and between industry and DOD, on the one hand, 
and the well-intentioned prospect of making levels of 
cybersecurity a matter of differentiating in contract and 
source selection. I understand where that comes from, and there 
is something to be said for it. But we just have to balance 
that with anything that will cause companies, for reasons of 
competitive advantage or disadvantage, to not share the details 
or specifics about a problem that they are facing across the 
companies. Right now, I think certainly at the higher levels, 
our companies do a good job of exchanging information and 
collaborating on how best to meet the threat. We do not want to 
put anything out there that discourages that.
    Senator Rounds. Thank you.
    Joe, anything else?
    Senator Manchin. No.
    Senator Rounds. Gentlemen, first of all, your full 
statement is a part of the record. We most certainly appreciate 
your participation here today. I am sure that we are going to 
be doing something along this line once again. But I would like 
to, once again, on behalf of the subcommittee, thank you all 
for your participation and your frankness. I think this goes a 
long ways towards informing the subcommittee and then the 
committee of some ideas or some processes that can be explored 
with regard to improving not just the culture but the overall 
process for addressing the issues of cybersecurity within the 
Department of Defense.
    With that, Senator Manchin, anything?
    Senator Manchin. No. Thank you.
    Senator Rounds. Very good. We will call this subcommittee 
to a close. Thank you.
    [Whereupon, at 3:36 p.m., the committee adjourned.]

                                 <all>
</pre></body></html>
